         AUDIT OF THE
PURCHASE CARD PROGRAM
 National Transportation Safety Board

    Report Number: FI-2005-072
    Date Issued: August 23, 2005
U.S. Department of                                                 Office of Inspector General
Transportation                                                     Washington, D.C. 20590
Office of the Secretary
of Transportation


August 23, 2005

The Honorable Mark V. Rosenker
Acting Chairman
National Transportation Safety Board
490 L’Enfant Plaza, S.W.
Washington, D.C. 20594

Dear Acting Chairman Rosenker:

This report presents the results of our audit of the National Transportation Safety
Board’s (NTSB) Purchase Card Program. The NTSB requested that we review the
internal controls of its Purchase Card Program, to help ensure that weaknesses that
existed in its previous small purchase program, called the Rapidraft Payment
System, had been fully corrected.

In 1999, NTSB identified incidents of fraud in using the Rapidraft Payment System
and requested an audit. We found that internal controls designed for the Rapidraft
Payment System were not being followed, resulting in numerous weaknesses that
left it vulnerable to fraud, waste, and abuse. The lack of internal controls under the
Rapidraft Payment System allowed two former NTSB employees to embezzle over
$90,000 of Government funds. In both cases, the former employees fraudulently
cashed the Rapidrafts made out to individuals rather than merchants. We issued a
report recommending that NTSB replace the Rapidraft Payment System with the
Government-wide Commercial Purchase Card Program.

The Rapidraft Payment System was discontinued at the end of September 1999. In
2002, NTSB established Board Order 1542A, “The NTSB-Sponsored Government
Purchase Card Program.” The Order constituted the principal policies and
procedures for the distribution and use of the purchase cards. Subsequently, NTSB
issued five Chief Financial Officer (CFO) standard announcements for the Program
from July 2002 to September 2003, to augment oversight and controls. In March

Report No. FI-2005-072
                                                                                 2


2005, the Purchase Card Program was transferred from the Office of the CFO to the
Office of Administration.

We focused our review on fiscal year (FY) 2004 purchase card transactions.
During FY 2004, NTSB purchase cardholders made just over 2,800 purchases
valued at approximately $870,000.

Our objectives were to determine whether (1) purchases using the cards were
reasonable, valid, and received and (2) NTSB’s internal controls over the purchase
cards were adequate to provide safeguards against fraud, waste, and abuse. We
conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States and performed such tests as we considered necessary to detect fraud,
waste, and abuse. Our scope and methodology are described in Enclosure 1.

RESULTS IN BRIEF
The design of NTSB’s internal controls to help prevent fraud, waste, and abuse
under the Purchase Card Program has improved appreciably when compared with
the Rapidraft Payment System. In addition, the Office of the CFO issued guidance
that improved both the oversight and controls to prevent improper use of purchase
cards. The table below highlights the differences in the design of internal controls
(see Table 1).

 Table 1. Differences in the Design of Internal Controls Between
 the Rapidraft Payment System and the Purchase Card Program
                        Design of                        Rapidraft      Purchase
                    Internal Controls                    Payment         Card
                                                          System        Program
 Prevent Payment to Individual Employees                   No            Yes
 Establish Procedures to Block Purchases from Certain      No            Yes
 Merchants
 Require Management Approval When Exceeding Single         No             Yes
 Purchase Limitation of $2,500
 Establish Dollar Limitations for Individual Employee      No             Yes
 Accounts
 Ability for Immediate Cancellation and/or Suspension of   No             Yes
 Individual Employee Accounts
 Ability to Review Cardholder Statement Based on           No             Yes
 Transaction Dates, Merchants, or Individual Employee
 Purchases
 Ability to Obtain Tailored Reports, Such as Multiple      No             Yes
 Purchases from the Same Merchant on the Same Day or
 Consecutive Days, Purchases on Weekends and Holidays,

Report No. FI-2005-072
                                                                                   3


 Purchases Greater than $2, 500


However, we identified problems with implementation of the CFO guidance.
Specifically, when NTSB management certified purchase card transactions as valid
and received, it did not review required supporting documentation--proof of
purchase and receipt. For example, over 40 percent of the purchase card
transactions we sampled lacked proof of purchase (invoices) and about 80 percent
of these transactions lacked proof of receipt. As a result, we could not determine
whether these purchases were valid or were received, although we did not notice
any unreasonable transactions.

Overall, internal controls over Government purchase card use were not effectively
implemented to safeguard against fraud, waste, and abuse. Specific instances of
controls not being properly implemented included:

   ¾ Management did not review supporting documentation when approving
     purchase card transactions in most cases. Our review found a pervasive
     lack of supporting documentation in the files presented for office
     management review and approval. For example, original invoices were
     presented for only 23 percent of sampled transactions. While approving
     officials accredited all transactions as valid purchases for the office, they did
     not perform the review required by the Order for most transactions, which
     mandated documentation supporting each purchase be attached to the
     cardholder statement report (Report NTS430) prior to certifying receipt and
     acceptance of goods and services. Therefore, management review could not
     be relied upon to ensure that the purchases were bona fide.

   ¾ Separated employees’ accounts at Citibank were not closed in a timely
     manner. For 4 of the 10 purchase cardholders who separated from NTSB
     during FY 2004, it took more than 2½ months for their accounts to be closed
     at Citibank. This was because the purchase card program coordinator did
     not notify Citibank promptly when an employee with a purchase card
     separated from the Agency. Until an account is closed, the cardholder could
     still make purchases over the telephone or online with the account number
     and an active expiration date. However, our review found that none of these
     10 separated cardholders made purchases on their accounts after separation.

   ¾ Issuance of Government purchase cards was not adequately controlled.
     NTSB management did not know that it inappropriately issued two purchase
     cards to one employee until we brought the issue to its attention. This
     happened because NTSB does not keep a record of all purchase cards
     authorized for issuance, and so it had no list that it could reconcile to the
     Citibank report. In addition, duties were not segregated—the Purchase Card

Report No. FI-2005-072
                                                                                                                    4


           Program Coordinator was himself ordering and receiving purchase cards
           from Citibank. As a result, unauthorized purchase cards could be issued
           without management approval.

      ¾ Management needs to improve the administration of the card program,
        training, record keeping, and annual program reviews. NTSB had not
        provided any refresher training to purchase cardholders and approving
        officials since FY 2002.1 Further, program management did not pay
        adequate attention to record keeping. For example, our review identified
        insufficient attention to cardholders approval applications and signed
        acknowledgment forms. In addition, NTSB did not conduct proper annual
        program reviews. 2 In 2004, NTSB combined this review with the annual
        Federal Managers’ Financial Integrity Act of 1982 (FMFIA) review. It was
        too limited to provide adequate coverage for the Purchase Card Program.

NTSB has significantly improved its program for making small purchases and has
established procedures that, if properly followed, should provide adequate
protection from fraud, waste, and abuse. However, NTSB needs to enforce
implementation of control procedures designed to prevent and detect improper use
of Government purchase cards. We are making recommendations to enhance
management review of purchase card transactions, removal of separated
cardholders’ accounts, annual program review, employee training requirements,
and record keeping.

Management generally concurred with our findings and recommendations and in
some cases completed the corrective actions. For example, it removed one of the
two purchase cards that was inappropriately issued to an employee and separated
the duty of ordering and receiving purchase cards from Citibank.

FINDINGS

Management Did Not Review Supporting Documentation When
Approving Purchase Card Transactions In Most Cases
Based on our sample review, we estimate that $771,000 out of $870,000 of
Government purchase card transactions made during FY 2004 lacked supporting
documentation in their file to ensure proper management review and approval. 3
This indicates that approving officials could not have examined supporting
1
    The Office of Administration provided purchase card training during the spring of 2005.
2
    When the purchase card program was transferred to the Acquisition Division, it issued Acquisition Bulletin 05, which
    states that the Acquisition Division will continue performing an annual review of the Purchase Card Program to
    ensure the policies and procedures are being adhered to and that the Program is operating effectively and within the
    intended parameters of the federal purchase card program.
3
     Based on our simple random sample of 98 items, we are 90 percent confident that the amount of purchase card
    transactions that lacked adequate support was $771,000 plus or minus 7 percent.

Report No. FI-2005-072
                                                                                5


documentation when certifying cardholder statement reports for the appropriateness
of purchase card transactions. This occurred because the approving official was not
enforcing the requirement in the CFO Announcement Number 20-040 requiring
that documentation supporting each purchase be attached to the cardholder
statement report prior to certifying the receipt and acceptance of goods and
services. Therefore, for those purchase card transactions lacking supporting
documentation, NTSB does not have reasonable assurance that the purchases were
proper.

Three NTSB offices accounted for approximately 94 percent of the dollars spent
using purchase cards. The Office of Management purchased office supplies and
equipment for the entire Agency, with the exception of the Office of the CFO, and
accounted for 62 percent of the total purchases. In the Office of Aviation Safety,
purchase cardholders used their cards to acquire goods or services in connection
with accident investigations and accounted for 16 percent of purchases. The Office
of the CFO purchased training for NTSB employees, in addition to its own office
supplies and equipment (see Table 2).

 Table 2. Breakdown of Transactions Related to Purchase Cards
                        During FY 2004
                Offices              Number of   Number          Total
                                     Purchase       of          Purchase
                                    Cardholders Purchases       Amount
      Office of Management                7        1,743        $536,000
      CFO                                 3          273         154,000
      Aviation Safety                    98          634         139,000
      Highway Safety                      8          118          18,000
      Research & Engineering              7            42         17,000
      Rail, Pipeline, & Hazardous        21            29          4,000
      Materials
      Marine Safety                       7             10          2,000
      Others                              7              0              0
       Total                            158          2,849       $870,000

Proof of Purchases and Deliveries Not Available for Management Review
We selected a statistical sample of 98 purchase card transactions for review and
found required supporting documents not submitted or original invoices not
included in the submission for management review. A key control established by
NTSB CFO Announcement Number 20-040, “Instructions for Processing the
Purchase Card Statement,” required approving officials to examine proof of
purchase (invoice) and deliveries (acknowledgment of receipts) before signing the
cardholder statement report that purchase cards were properly used to support


Report No. FI-2005-072
                                                                                  6


business needs. This announcement (dated September 11, 2003) outlines the
process for providing receipt and acceptance of monthly purchase card transactions.
According to the announcement, the cardholder statement report is the only
document that can be accepted for certification of purchase card transactions.
While all of the purchase transactions we reviewed were certified as valid
Government purchases by approving officials, 43 percent did not have proof of
purchase (invoices) and 79 percent lacked proof of receipt. Furthermore, about half
of the invoices used for support were photocopies, which did not provide
management with assurance that the support had not been altered. In addition, the
approving official for the Office of Management was not reviewing purchase
transactions listed on the cardholder statement reports but on a spreadsheet
manually created by the purchase cardholder (see Table 3).

   Table 3. Summary of Purchase Card Transactions Reviewed
  NTSB        Total      Purchase    Number        No          No       Cardholder
  Office     Purchase    Amounts       of        Proof of    Proof of    Statement
             Amounts     Sampled    Purchases    Purchase    Delivery    Signed by
                                    Sampled                             Cardholder/
                                                                        Approving
                                                                          Official?
 Office of   $536,119    $25,468         73         40          66          No
 Mgmt
 Office of     153,791      5,878        11          2          9           Yes
 CFO
 Office of     139,122      2,385        12          0          2           Yes
 Aviation
 Other          41,102        442         2          0          0           Yes
 Offices
  Total      $870,134    $34,173         98         42          77          N/A
                                                  (43%)       (79%)

We found most of the exceptions with purchases were made by the Offices of
Management and CFO. The Office of Management was purchasing goods and
services for all NTSB offices in the field. The Headquarters approving official was
not mandating that the field office provide documentation supporting each purchase
before certifying the receipt and acceptance of goods and services. In addition, we
could not validate the receipt of training courses paid for by the Office of CFO.
For example, there was no evidence in the files of any certificate of training or the
certifying official’s signature on the training form attesting that the training was
completed.

Because of the lack of supporting documentation for most purchase card
transactions, approving officials had nothing to examine in determining the
appropriateness of these transactions before signing the cardholder statement

Report No. FI-2005-072
                                                                                                                     7


reports. Consequently, there is no assurance that items purchased complied with
purchasing requirements and had a valid Government purpose. Without the proof
of purchase to review, an approving official cannot verify that only requested items
were purchased. Without the proof of delivery, an approving official cannot
determine whether what was purchased was properly delivered. Reviewing copies
instead of original supporting documentation increases the probability that
alterations could have been made, such as to items purchased or to delivery
addresses. We found that $30,266 out of $34,173 (89 percent) of purchases
sampled was not adequately reviewed by NTSB approving officials. Therefore, we
estimate that purchases worth $770,513 out of $869,999 made during FY 2004 did
not follow procedures. 4

Separated Employees’ Accounts at Citibank Were Not Closed in a
Timely Manner
The Order requires employees to turn in their Government credit cards and the
Human Resources Division to notify the Agency coordinator when the cardholder
separates from the Agency. Ten cardholders were separated from NTSB during
FY 2004. We found that the 10 cardholders’ accounts were closed between 9 days
before their separation date and 199 days—over 6 months—after their separation
date. See Table 4.

       Table 4. Elapsed Days for Closing Purchase Card Accounts
    Separated NTSB            Date Separated Date Citibank                      Number of Days Between
       Employee                From NTSB      Closed the                        Date Separated and Date
                                               Account                            Account Was Closed
Employee A                       02/01/04      01/23/04                                  -9 days
Employee B                       01/24/04      01/22/04                                  -2 days
Employee C                       10/31/03      10/29/03                                  -2 days
Employee D                       05/15/04      05/17/04                                   2 days
Employee E                       07/31/04      08/04/04                                  4 days
Employee F                       01/03/04      01/14/04                                  11 days
Employee G                       10/04/03      12/17/03                                  74 days
Employee H                       06/01/04      10//05/04                                126 days
Employee I                       04/30/04      10/05/04                                 158 days
Employee J                       10/17/03      05/03/04                                199 days


Although cardholders are required to turn in their Government credit cards upon
separating from NTSB, until the accounts are actually closed with Citibank, the
cardholders could still make purchases over the telephone with only the account

4
     We are 90 percent confident that there are between 1,941 (73 percent) and 2,292 (86.2 percent) transactions that are
     missing either type of documentation.

Report No. FI-2005-072
                                                                                 8


number and an active expiration date. However, our review found that none of
these 10 separated cardholders made purchases on their accounts after separation.

These delayed account closings happened because the Purchase Card Program
coordinator did not notify Citibank in a timely manner to close the accounts of
separated cardholders. The coordinator indicated that although he has been added
to the notification list of new hires and separations issued by the Human Resources
Division, the notifications are not sent promptly. The coordinator said he has no
control over when he receives the notifications from the Human Resources
Division.

Issuance of Government Purchase Cards Was Not Adequately
Controlled
The Order requires each office director to approve and sign an application form for
each purchase card account. We found that NTSB mistakenly established two
purchase card accounts and issued two separate purchase cards to an employee
without proper approval. Furthermore, NTSB officials were not aware that two
purchase cards had been issued to this cardholder until we brought it to their
attention. After being informed, NTSB officials cancelled one of the cards. This
occurred because NTSB did not keep track of all purchase card accounts authorized
for establishment. Therefore, NTSB did not have an active list of authorized
accounts to reconcile against Citibank’s list of outstanding accounts.
Consequently, unauthorized purchase card accounts could be established without
management approval.

We also found that the purchase card program coordinator both ordered and
received purchase cards from the bank. The lack of separation between these two
duties was reported as an internal control weakness in a previous audit. In response
to a PricewaterhouseCoopers (PWC) audit recommendation in a January 2001 audit
report, NTSB agreed to assign different individuals to order and receive purchase
cards. The NTSB responded to the PWC recommendation by stating:

      The duty of ordering purchase cards has been separated from the
      duty of receiving these cards. Thus, the Agency Card Coordinator
      will continue ordering cards; however, cards will be delivered
      directly to the Senior Contract Specialist for distribution.

The Purchase Card Program coordinator stopped receiving purchase cards in
FY 2001, as a result of the audit recommendation; but we found that he resumed
this duty in recent years, opening the possibility of obtaining purchase cards for
unauthorized use. Since the FMFIA review of the Purchase Card Program is not as
extensive as the separate program of annual review, the coordinator’s resumption
of ordering and receiving the purchase cards went unnoticed. However, we
verified in FY 2004 that the coordinator had not made purchases and that no

Report No. FI-2005-072
                                                                                   9


purchase cards were issued to non-NTSB employees. After we brought the concern
to NTSB management’s attention, it reinstated the separation of duties. Currently,
in the Office of Acquisition, the coordinator is responsible for distributing the new
purchase cards, while another individual in his office is responsible for ordering the
purchase cards.

Management Needs to Improve the Administration of the Card
Program, Training, Record Keeping, and Annual Program Reviews
NTSB is not effectively monitoring and evaluating its Purchase Card Program.
Oversight has been lacking in several areas, including (1) the training of card users
and approving officials; (2) the insufficient attention to cardholder applications and
acknowledgment forms, resulting in missing documentation in some cases; and (3)
the annual program review (while combining this review with the FMFIA review
was efficient, it did not provide adequate coverage for the purchase card program).

The Order requires new purchase cardholders to take the General Services
Administration (GSA) online purchase card training. However, the Order does not
specify when a purchase cardholder should take refresher training. The last time all
purchase cardholders and approving officials were required to take the GSA online
purchase card refresher training was in FY 2002. NTSB officials plan to revise
their current policy to require all purchase cardholders and approving officials to
take the GSA online training.

We also found NTSB should pay more attention to record keeping. For example,
we had to verify purchase cardholders’ and approving officials’ training with GSA
because NTSB could not locate training certificates in a timely manner. It took
NTSB over 60 days to provide us with training certifications for the 23 employees
selected for review—20 purchase cardholders and 3 approving officials. In
addition to the training certificates, we asked for the approved applications and
signed acknowledgment forms for the 20 purchase cardholders. Like the training
certifications, it took NTSB over 60 days to provide us with the applications and
acknowledgement forms. In addition, NTSB could not locate one of the
applications for an employee, who was authorized to have two purchase card
accounts; and could not locate acknowledgment forms for two purchase
cardholders. NTSB needs to do a better job of retaining training certificates to
support that purchase cardholders and approving officials were properly trained, as
well as retaining the applications and acknowledgment forms.



Annual Review of Purchase Card Program Not Conducted as Required
As stated in the Order:



Report No. FI-2005-072
                                                                                10


      Each Office Director is responsible for reviewing at least annually
      all Cards used by his/her office to ensure that each employee meets
      the Office Director’s criteria for continued participation in the
      Program. The CFO shall issue a memo initiating this review and
      directing when it shall be completed.

The newly established Office of Administration’s Acquisition Bulletin 05 also
requires each office director to conduct an annual review.

In FY 2004, NTSB combined the annual review with the FMFIA review. The
combined review consisted of only a risk assessment questionnaire to be completed
by the Purchase Card Program coordinator as part of the FMFIA review. We found
that the combined review process was efficient, but it did not provide as detailed a
review of the Purchase Card Program as the prior annual program reviews. The
last annual program review, done in FY 2002, required that NTSB managers verify
current purchase cardholders by acknowledging closed accounts for separated
cardholders and transferred accounts when cardholders moved to another office.
The CFO requested that the annual review include recertification of the training of
the purchase cardholders, completion of the card administrative review, and an
inventory of convenience checks. The FY 2002 annual program review
specifically evaluated the adequacy and effectiveness of the Purchase Card
Program and would be more likely to identify fraud, waste, and abuse than the
examinations done as part of the FMFIA review.

RECOMMENDATIONS
To reduce the Purchase Card Program’s vulnerability to fraud, waste, and abuse,
we recommend that the Acting Chairman, NTSB, direct the Director of the Office
of Administration to:

1. Verify that purchase card approving officials review the supporting
   documentation for purchase card transactions before signing and dating the
   cardholder statement report.

2. Require purchase card approving officials to notify the card program
   coordinator of the separation of purchase cardholders to ensure timely closeout
   of their accounts at Citibank.

3. Direct the card program coordinator to develop a list of NTSB employees with
   authorized purchase card accounts and periodically reconcile that list to
   Citibank’s list of active purchase card accounts.




Report No. FI-2005-072
                                                                                 11


4. Direct the card program coordinator to develop training requirements for
   cardholders and keep better records of training certifications, applications, and
   acknowledgment forms.

5. Require the card program coordinator to expand FMFIA to include a more
   extensive review of the Purchase Card Program.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to NTSB for comments on July 25, 2005. The
NTSB Acting Chairman responded on August 5, 2005, and concurred with all
recommendations and provided planned actions except for recommendation 4 (see
Enclosure 4 for complete management comments).

Specific changes by the NTSB and its planned actions on our recommendations are
provided below:

Recommendation 1: The NTSB concurred. The Offices of Administration and
CFO have developed new procedures for purchase card users. The procedures
require that an office purchase card file be maintained with all supporting
documentation, approvals, and invoices for each purchase. Cardholders are
instructed to provide this file with their statement to the approving official for
review and approval.

OIG Response: The NTSB’s actions meet the intent of our recommendation.

Recommendation 2: The NTSB concurred. The program coordinator will modify
the Purchase Card Operations Bulletin to incorporate language requiring
notification of the separation of cardholders from NTSB. The program coordinator
will also require the Office of Human Resources to notify him of any employee
separations.

OIG Response: The NTSB’s actions meet the intent of our recommendation.
However, we request that the NTSB provide us with a timeframe for implementing
the proposed corrective actions.

Recommendation 3: The NTSB concurred. The program coordinator receives a
monthly listing from Citibank of NTSB employees with authorized purchase card
accounts. The program coordinator is manually updating this listing to reflect any
additions, separations, or accounts changes during the month. This updated listing
is being used to ensure that only authorized accounts are included in future listings
received from Citibank.

OIG Response: The NTSB’s actions meet the intent of our recommendation.

Report No. FI-2005-072
                                                                               12


Recommendation 4: The NTSB concurred. In April 2005, Headquarters
Administration Officers and other key personnel were trained on the new purchase
card procedures. The program coordinator is developing a plan to conduct training
of all cardholders and approving officials.

OIG Response: The NTSB’s actions meet the intent of our recommendation.
However, we request that the NTSB provide us with a timeframe for the
development of the training plan and clarify how often the training is required. In
addition, we request NTSB provide us with its planned actions for enhancing its
record keeping for training certifications, applications, and acknowledgement
forms.

Recommendation 5: The NTSB concurred. The program coordinator will
conduct a separate review of the purchase card program to determine its validity
and effectiveness, in addition to asking individual program offices to complete an
FMFIA risk assessment survey.

OIG Response: The NTSB’s actions meet the intent of our recommendation.

The actions planned by NTSB are reasonable and should correct the deficiencies
cited in this report. We request that NTSB provide specific corrective action dates
for recommendations 2 and 4, and the planned action to enhance record keeping in
recommendation 4 in 30 days.

We appreciate the courtesies and cooperation of the NTSB representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-1992 or Rebecca Leng, Deputy Assistant Inspector General for
Information Technology and Computer Security, at (202) 366-1488.


Sincerely,




Theodore P. Alves
Principal Assistant Inspector General
 for Auditing and Evaluation

Enclosures (4)




Report No. FI-2005-072
                                                                                                                  13


ENCLOSURE 1. SCOPE AND METHODOLOGY
This audit focused on the FY 2004 purchase card transactions valued at
approximately $870,000. The majority of the transactions were made by the
Office of Management, Office of the CFO, and Office of Aviation Safety. 1

At the Department of the Interior National Business Center, the processing center
for NTSB financial activities, we reviewed the supporting documentation for each
of the 98 sample transactions to determine whether we could locate original
documentation, such as, cardholder statement reports, proof of purchase
(invoices), or proof of deliveries (receipt documentation). We also selected
23 individuals—20 purchase cardholders and 3 approving officials—to review
whether they had taken the required GSA online purchase card training.

We interviewed NTSB approving officials in the Office of Management and
Office of Aviation Safety to gain an understanding of the receipt and acceptance
process of the monthly purchase card transactions. We interviewed the Purchase
Card Program coordinator in the Office of the CFO to obtain an understanding of
NTSB’s purchase card policies and procedures and related internal controls. We
also interviewed officials from the Office of Administration to gain an
understanding of revisions to NTSB’s purchase card policies and procedures and
related internal controls. In addition, we contacted appropriate officials at
Citibank and the GSA.

We reviewed the PricewaterhouseCooper LLP report dated January 12, 2001,
which addressed NTSB’s internal control weaknesses, including the Purchase
Card Program. We followed up to determine if the recommendations in this report
related to the Purchase Card Program were implemented by NTSB.

We performed our audit work from November 2004 through April 2005 at NTSB
Headquarters in Washington, DC, and at the Department of the Interior National
Business Center in Denver, Colorado. The audit was conducted in accordance
with Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to provide reasonable assurance of detecting abuse or illegal acts.




1
    The Offices of Management and CFO is no longer centrally purchasing office supplies and services, and training for
     all NTSB employees as they did in 2004. The purchasing of office supplies and services and training is done by
     individual offices.


Report No. FI-2005-072
                                                                   14


ENCLOSURE 2. ACTIVITIES VISITED OR CONTACTED

NTSB Headquarters, Washington, DC
   • Office of Chief Financial Officer
        ♦ Accounting Operations Division (Purchase Card Program)
   • Office of Management
        ♦ Office of Administration
        ♦ Office of Aviation Safety

Department of the Interior’s National Business Center,
Washington, DC

General Services Administration (Purchase Card Program)

Citibank (Purchase Card Program)




Report No. FI-2005-072
                                                        15


ENCLOSURE 3. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



   Name                            Title

   Gary B. Fishbein                Project Manager

   Clarence Fujimoto               Senior Auditor

   Dr. Eugene Adcock               Statistician




Report No. FI-2005-072
                                                                                         16


ENCLOSURE 4. MANAGEMENT COMMENTS

                R AN S PO
           LT
     A




                                           RT
                                                     National Transportation Safety Board
 NATI ON

                         UR IB US
                    PL              UNUM




                                            ATIO N
                E




                                                             Washington, D.C. 20594
                                            D
   SA




           FE            R
                T Y B OA

Office of the Chairman


                                                                      August 5, 2005


Mr. Kenneth M. Mead
Inspector General
Department of Transportation
400 7th Street S.W.
Washington, D.C. 20590

Dear Mr. Mead:

Thank you for the opportunity to provide comments to the draft report on the
Purchase Card Program. I agree with the conclusions and am providing the
following comments on the recommendations contained in the report.

We are pleased that you have recognized a number of actions that we have taken
to improve our internal controls over the Purchase Card Program. In April 2005,
the Acquisition Division assumed overall management of the NTSB Purchase
Card Program. The Acquisition Division worked with the CFO to develop new
procedures for purchase card use and conducted refresher training for the
Headquarters Administrative Officers and other key personnel on the new
purchase card procedures.

Please call me at 314-6035 or Steven Goldberg at 314-6210 if you have any
questions or need additional information.

                                                                      Sincerely,



                                                                      Mark V. Rosenker
                                                                      Acting Chairman
Enclosure


Report No. FI-2005-072
                                                                                   17

                    IG Audit of the Purchase Card Program
                                    FY 2004
                        Response to Recommendations

Recommendation 1. Verify that purchase card approving officials review the
supporting documentation for purchase card transactions before signing and dating
the cardholder statement report.

Response: Concur. In April 2005, the Acquisition Division (AD-20) – now part
of the Office of Administration (AD) – assumed overall management of the NTSB
Purchase Card Program. Since this transition, AD-20 worked with the CFO to
develop new procedures for purchase card use that requires the cardholder to
receive approval from the approving official before a purchase is made, and
requires that an office purchase card file be maintained with all supporting
documentation, approvals, and invoices for each purchase. Cardholders are
instructed to provide this file with their statement to the approving official for
review and approval. AD-20 is verifying this process by conducting random
audits of each purchase cardholder’s records.

Recommendation 2. Require purchase card approving officials to notify the card
program coordinator of the separation of purchase cardholders to ensure timely
closeout of their accounts at Citibank.

Response: Concur. The program coordinator will modify the Purchase Card
Operations Bulletin to incorporate language that requires notification of the
separation of cardholders. In addition, the program coordinator will request the
Office of Human Resources to notify him when an employee separates from the
NTSB.

Recommendation 3. Direct the card program coordinator to develop a list of
NTSB employees with authorized purchase card accounts and periodically
reconcile that list to Citibank’s list of active purchase card accounts.

Response: Concur. The program coordinator receives a monthly listing of all
active cardholders and corresponding account numbers. This list is reconciled
monthly with any activity during the previous month to ensure any additions,
separations, or account changes have been completed accurately.

Recommendation 4. Direct the card program coordinator to develop training
requirements for cardholders and keep better records of training certifications,
applications, and acknowledgement forms.




Report No. FI-2005-072
                                                                                 18

                                         2

Response: Concur. In April 2005, Headquarters Administrative Officers and
other key personnel were trained on the new purchase card procedures and their
accounts were re-activated for them to test these procedures before we
implemented them agency-wide. The program coordinator issued training
certificates to those individuals that successfully attended the training, and kept
copies for documentation. The program coordinator is currently developing a plan
to conduct training of all cardholders.

Recommendation 5. Require the card program coordinator to expand FMFIA to
include a more extensive review of the Purchase Card Program.

Response: Concur. As stated in the new purchase card procedures, the program
coordinator will conduct an annual review of the purchase card program to
determine its validity and effectiveness. In addition, the program coordinator will
complete the program risk assessment survey as part of the annual FMFIA
program.




Report No. FI-2005-072
